No. 20-5693

In The
Supreme Court of the United States
IN RE:
Terron Dizzley

On Petition For Writ of Mandamus

Petition For Rehearing

Terron Dizzley
#359480
4460 Broad River Road
Columbia, South Carolina 29210
Petitioner Pro Se

J

f

TABLE OF CONTENTS
Table of Content

i

Table of Authorities

ii

Petition for Rehearing.

1

Statement of Facts

3

Reasons Meriting Rehearing

4

Suggestions in Support of Rehearing,

8

Conclusion

13

Certificate of Good Faith

14

Appendix
Order Denying Writ of Mandamus

A

Ruling of Honorable Judge Michael Baxley

B

State v. Terron Dizzley, 2009 - GS 00778 (2012)
Decision of Georgetown South Carolina Court of General Sessions (2012)

Table of Authorities
Ashe v. Swenson, 397 U.S. 436 (1970)

1

Benton v. Maryland, 395 U.S. 784 (1969)

5

Downum v. U.S., 372 U.S. 734 (1963)

5

Dynes v. Hoover, 61 U. S. 65 (1857)

7

Elliott v. Peirsol's Lessee, 26 U. S. 328 (1828)

7

Evans v. Michigan, 568 U. S. 313 (2013)
Exparte Lange, 85 U.S. 163 (1873)

4,11
5,6

Fong Foo v. U. S., 369 U- S. 141 (1962)

4

Illinois v. Somervile, 410 U. S. 458 (1973)

5

In re Winship, 397 U. S. 358 (1970)

10

Lee v. U. S. 432. U. S. 23 (1977)

4

Sanabria v. U. S., 437 U.S. 54 (1978)

4

Smalis v. Pennsylvania, 476 U. S. 140 (1986)

4

Smith v. Massachusetts, 543 U. S. 462 (2005)

4

State v. Prince, 279 S.C. 30 (1983)

4,5

State v. Rowlands, 343 S. C. 454 (2000)

5

U. S. v. Gordy, 526 F. 2d 631 (1976)

5

U. S. v. Jorn, 400 U. S. 470 (1971)

5

U. S. v. Martin Linen Supply Co. 430 U. S. 564 (1977)

3

U. S. v. Razmilovic, 507 F. 3d 130 (2007)

5

U. S. v. Scott, 437 U. S. 82 (1978)

3

!

Petition For Rehearing and Suggestions In Support
Comes Now Petitioner, Terron Dizzley, Pro Se, and pray this Court to grant Rehearing
pursuant to Rule 44 and thereafter, grant him a Writ of Mandamus to review the ruling of the
Honorable Judge Michael Baxley in State v. Terron Dizzley. 2009 - GS - 00778 (2012).
In support of petition, Terron Dizzley states the following:
Statement of Facts
In August of 2012, Petitioner was tried and "acquitted" of the charge of murder in a
Georgetown, South Carolina Court of General Sessions trial by jury by the Honorable Michael
Baxley. Judge Baxley's ruling was on based on "insufficient evidence" to convict which
established Petitioner's innocence and lack of criminal culpability that the prosecution "failed
to meet their burden of proof to the extent that they can bring back a unanimous verdict". See
Transcript of 2012 Trial, Ruling of the Honorable Judge Michael Baxley. Appendix B, Pages 314,
L 4 - Page 315, L. 1 - 8. Pages 314, L 4 -18." First of all, I don't want you to think in any wav that
your exercise as jurors has been a failure on your part because you could not reach a verdict.
That's not a failure on your part. That's really the strength of our system because we bring
diverse citizens from different backgrounds all from the same community to hear a set of facts
and make a decision as to whether or not in criminal court a person is guilty or innocent.
Now what you've told us is that you can't reach a unanimous decision, and I would say to you
to that that's not a failure on your part. That's actually a strong message to the prosecution
that they are unable to meet the burden of proof to the extent that they can bring back to
unanimous verdict."
1

Throughout these portions of Judge Baxley's ruling, he stated three times that it was not
a failure on the jury's part that they could not reach a unanimous verdict, and stated two times
that his ruling was based on Petitioner's innocence and lack of criminal culpability due to
insufficient evidence, that they Prosecution was unable to meet the burden of proof to the
extent that they can bring back a unanimous verdict. See also pages 315, LI - 8.
"I don't want you to believe in any way, zero way, that that somehow you are
responsible for that, because you are not. You're given a set of facts that were the best that the
State could adduce from what happened and what they were able to determine, they put that
up to you and you brought back a decision that you simply could not agree upon it. There's a
message in that and so you've accomplished your purpose."
Throughout these portions of Judge Baxley's ruling, he affirms that "in any way", "zero
way" was the jury responsible for not being able to bring back a unanimous verdict, and that
the Prosecution provided insufficient evidence to enable to jury to reach a decision, and that
this was a "strong message to the Prosecution" "that they were unable to meet the burden of
proof' to bring back a unanimous verdict.
According to clear established laws of this Honorable Supreme Court of the United
States, any alleged jurisdiction of the State Court terminated upon Judge Baxley's ruling, is an
"acquittal" and therefore retrial was barred by the double jeopardy clause of the Fifth
Amendment of the United States Constitution.
According to clear established laws of this Honorable Supreme Court of the States, any
alleged jurisdiction of the State Court terminated upon Judge Baxley's ruling, therefore,
2

Petitioner's second trial of 2014 was illegal, unconstitutional, and trial court lacked
jurisdiction to impose sentence on Petitioner.
Petitioner contends that Judge Baxley declared a mistrial, hung jury, after only two
hours and fifty minutes of deliberations; an hour of that time was consumed by questions
from the jury and a break, without polling the jury or considering any alternatives, before
abruptly discharging the jury. According to clear established laws of this Honorable Supreme
Court of the United States, Judge Baxley's decision to abruptly discharge the jury was not
dictated by a "Manifest Necessity or Ends of Public Justice." It also violated Petitioner's Fifth
Amendment Right to have his trial completed by a particular tribunal.
Reasons Meriting Rehearing
1. This Court's decision denying Petitioner's Writ of Mandamus is in direct conflict with
U. S. v. Scott. 437 u. S. 82 (1978), "A judgement of acquittal, whether based on a jury
verdict of not guilty or on a ruling by the court that the evidence is insufficient to convict
may not be appealed and terminates the prosecution when a second trial would be
necessitated by reversal. "U. S. v. Wilson, 420 U. S. 332 (1975), U. S. v. Martin Linen
Supply Co., 430 U. S. 564 (1977), "Although statue authorizes an appeal by the United
States in a criminal case from a district court "dismissal" rather than "acquittal", form of
the ruling is not dispositive of appealability in a statutory sense. What constitutes an
"acquittal" for purposes of application of double jeopardy clause, is not to be controlled by
the form of judge's action' rather; court must determine whether ruling of judge, whatever
its label, actually represents a resolution, correct or not, of some or all of the factual
3

elements of offense charged". Smalis v. Pennsylvania, 476 U. S. 140 (1986); Lee v. U. S., 432
U. $. 23, (1977). "Question as to whether double jeopardy clause prohibits retrial after the
case has been terminated, after jeopardy has attached, without a finding on the merits does
not depend upon whether the court labels it's action a dismissal or declaration of "mistrial",
but rather whether order contemplates an end to all prosecution of the defendant for the
offense charged." Smith v. Massachusetts. 543 U. S. 462 (2005); Evans v. Michigan. 568 U. S.
313 (2013). "An acquittal for double jeopardy purposes includes a ruling by the court that
the evidence is insufficient to convict, a factual finding that necessarily establishes the
criminal culpability and other rulings which relates to the ultimate question of guilt or
innocence. Labels does not control the analysis of whether a decision dismissing a criminal
case bars retrial under double jeopardy clause, rather the substance of the court's decision
does. The U.S. Supreme Court, Justice Sotomayor, held midtrial directed verdict and
dismissal, based on trial court's erroneous requirement of an extra element for charged
offense, was "acquittal" for double jeopardy purposes. Most relevant here, and acquittal
encompasses any ruling that the prosecution's proof is insufficient to establish criminal
liability for offense." Sanabria v. U. S., 437 U. S. 54 (1978); Fong Foo v. U. S., 369 U. S. 141
(1962) U. S. v. Thompson. 690 F. 3d. 977, 996 (8th Cir. 2012), "double jeopardy bar because
judge's initial acquittal at close of defendant's case was determination that government had
not met burden of proof."
2. The Prosecution of Georgetown, South Carolina's decision to retry Petitioner's case is
clearly in direct conflict with it's own Supreme Court's rulings in State v. Prince. 279 S. C.
4

30 (1983); State v. Rowlands. 343 S. C. 454 (2000), which are supported by clearly
established law of this Supreme Court of the United States Benton v. Maryland, 395 U.
S. 784 (1969); Wade v. Hunter. 336 U. S. 684 (1949); Downum v. U. S., 372 U. S. 734
(1963); Illinois v. Somerville. 410 U. S. 458 (1973), and also in direct conflict with clear
established law of Federal Courts in other circuits which are also supported by the laws
of this Supreme Court of the United states. U. S. v. Razmilovic, 507 F. 3d 130 (2007); U. S
v. Gordv. 526 F. 2nd 631, 636 - 37 (1976); U. S. v. Jorn. 400 U.S. 470 (1971).
Petitioner contends that these cases are so strikingly similar to his case both
legally and factually, that the same results reached in these cases must also be reached
in this case.
In State v. Prince. 279 S. C. 30 (1983), the jury had been deliberating for only
and one half hours from approximately 4:30 in the afternoon until about ten o'clock at
night, a portion of that time was consumed by evening meals, a mistrial was ordered
over defendant's objections after jury requested testimony of two witnesses to be read,
and court reporter indicated that testimony would take approximately two hours and
ten minutes was not dictated by manifest necessity or ends of public justice, and,
therefore, retrial of defendant was barred by double jeopardy. Reversed.
Petitioner contends that this case is more extraordinary than Prince's, whereas,
the jury in his case was only deliberating for two hours an fifty minutes and a portion of
that time was consumed by questions and a break which accounted for approximately
an hour which left only an hour and fifty minutes for deliberations. The Flonorable
5

Judge Baxley then abruptly declared a mistrial without polling the jury or without any
consideration to any alternatives before discharging the jury.
According to clearly established law of this Supreme Court of the United States,
Judge Baxley's decision to declare a mistrial was not dictated by manifest necessity or
ends of public justice and violated Petitioner's Fifth Amendment right to have his trial
completed by a particular tribunal. Because jeopardy attached when the jury was sworn
in for the first trial, Petitioner's second trial of 2014 was barred by double jeopardy.
2.

This Court's decision denying Petitioner's Writ of Mandamus is in direct conflict with
Exparte Lange. 85 U. S. 163 (1873), "The court initiated what has been described as a
long process of expansion of the concept of lack of jurisdiction. Lange contended that
he had been twice sentenced for the same offense, in violating the Fifth Amendment's
double jeopardy clause, when he had been re-sentenced to a term of imprisonment
after having paid the fine originally imposed. Carefully disclaiming the use of habeas as
a writ of error, The Supreme Court ordered, Lange released from imprisonment
because the lower Court's jurisdiction terminated upon the satisfaction of the original
sentence."
Petitioner contends that Judge Baxley's ruling that the Prosecution was unable
to meet the burden of proof to the extent that they could bring back a unanimous verdict
was an "acquittal," - a ruling in Petitioner's favor which terminated the jurisdiction of his
case. Therefore, trial court lacked jurisdiction to impose sentence on him. According to
clearly established law of this Honorable Supreme Court of the United States, The South
6

Carolina Department of Corrections have no legal nor jurisdictional authority to hold
Petitioner imprisoned. Exparte Lange, "A second judgement on the same verdict is,
under such circumstances, void for want of power, and it affords no authority to hold
the party a prisoner, and he must be discharged. Dynes v. Hoover. 61 U. S. 65, (1857),
"Where the court has no jurisdiction or disregards rules of procedure for it's exercise, all
parties to illegal trials and imprisonment are trespassers on party aggrieved thereby and
he may recover in proper suit in civil courts." Elliott v. Peirsol's Lessee. 26 U. S. 328
(1828), "A judgment rendered by a Court which does not have jurisdiction constitutes no
justification and all persons concerned in executing such judgement are considered in
law trespassers. If the court acts without authority, its judgements and order regarded as
nulities, and form no bar to a recovery, even prior to a reversal."
This court "must" grant Rehearing and Writ of Mandamus and issue and order
directing the State of South Carolina Department of Corrections to immediately release
Petitioner from this false imprisonment because the failure to do so would allow the
State of South Carolina to continue to hold Petitioner falsely imprisoned for charges of
which he was acquitted , and would continue to allow the State of South Carolina to
disregard the laws of the United States Constitution and allow Prosecutors and Judges
to stop trials for reasons that are not dictated by manifest necessity or ends of public
justice, to try cases without any evidence, and retry cases where there had been rulings
in favor of defendants, thus violating Petitioner's and others' Fifth Amendment rights to
have a wrongful allegations brought against completed and resolved by a particular
7

tribunal, and continue to allow South Carolina to subject citizens to be twice put in
jeopardy - life or liberty- for the same offense, and continue to cause financial and
emotional burdens on the accused, prolong the period in which he is stigmatized and
enhance the risk that innocent people like Petitioner is wrongfully convicted because of
unconstitutional premature termination of cases and retrials which violates the Fifth
Amendment's Double Jeopardy Clause.
3. This court has an ethical duty by The United States of America to establish the law of the
land and to assure the Citizens of the United States of America that the lower courts
apply that law. When they do not, it is this Court's obligation to hold that court
accountable and see to it that justice is administrated fairly. This Court must hear this
case and hold the Fifteenth Circuit, Georgetown County South Carolina Courts
accountable for imposing an unlawful sentence on Petitioner without jurisdiction and
hold the State of South Carolina accountable for falsely imprisoning him for over six and
one half years and counting. This Court must apply the laws of our Constitution as
interpreted by the Honorable Chief Justices of this Honorable Supreme Court of the
United States pursuant to this courts own rulings cited in this Petition for Rehearing and
Petitioner's writ of Mandamus and grant Petitioner relief where relief is do.
Suggestions In Support of Rehearing
Petitioner contends that the Prosecution's case rested solely on identity. Where alleged
witnesses indicated that an individual with a mask and hoodie whom they could not
identify came in the bar, shot the victim and shot at others and then ran out of the
8

bar.
Petitioner contends that he was never identified as the person who committed the
crime and provided an alibi defense for the entire time that the crime occurred. See:
Ashe v. Swenson. 397 U.S. 436 (1970), "Where three or four armed men robbed six
poker players in home of one of the victims and defendant was charged in separate
counts with robbery of each of the six poker players and was tried on one count and was
acquitted for insufficient evidence and prosecution in which identity of defendant as
one of the robbers was the single rationally conceivable issue in dispute, federal rule of
collateral estoppel, embodied in the Fifth Amendment guarantee against double
jeopardy, precluded subsequent prosecution of defendant for robbery of a different
in this case, the State in it's brief has frankly conceded that following the Petitioner's
acquittal, it treated the first trial as no more than a dry run for a second prosecution; No
doubt the prosecutor felt the State had a provable case on the first charge and, when
he lost, he did what every good attorney would do - he refined his presentation in light
of the turn of events at the first trial; but this is precisely what the Constitutional
guarantee for forbids."
Petitioner contends that his case and Ashe v. Swenson are so strikingly similar,
both legally and factually, that the same results reached in Ashe must also be reached in
Petitioner's case. Whereas, both Ashe and Petitioner's case rested solely on identity and
Ashe was acquitted due to insufficient evidence, and Petitioner was also acquitted due
to insufficient evidence pursuant to a ruling by the Judge that the Prosecution failed to

9

meet their burden of proof.. United States Courts Legal Glossary defines Acquittal - "A
jury verdict that a criminal defendant is not guilty or the finding of a judge that the
evidence is insufficient to support a conviction. Petitioner is innocent of the charges for
which he's falsely imprisoned.
Petitioner contends that according to Judge Baxley's ruling supported by clear
law of this Supreme Court of the United States, Petitioner was proven innocent in a
court of law of this country. The record shows that:
1. Petitioner appeared in a Georgetown South Carolina Court of General Session for
the charge of murder in 2012. Whereas, he is presumed innocent until proven

guilty.
2. A jury was sworn in and jeopardy attached to the Petitioner in the 2012 trial.
3. At this point, the State had the burden to introduce sufficient evidence to sustain
each essential element of the crime charged beyond a reasonable doubt to obtain a
conviction. In re Winship, 397 U. S. 358 (1970), "Rule requiring establishment of
guilt of criminal charge by proof beyond reasonable doubt is accepted in common law jurisdictions as measured of persuasion by which prosecution must convince
trier of all essential elements of guilt."

4. The record clearly shows that the Honorable Judge Baxley abruptly stopped
deliberations in Petitioner's trial after only two hours and fifty minutes and stated that
his reason for violating Petitioner's Fifth Amendment rights to have these wrongful
allegations brought against him resolved under that particular jury had

10

nothing to do with a failure on the jury's part. Judge Baxley clearly indicated that
the reason for abruptly stopping deliberations and discharging the jury was because
the Prosecution did not meet that burden of proof required by the laws of this Court
to sustain a conviction. According to the laws this Supreme Court of the United
States Judge Baxley's ruling was an acquittal. Evans v. Michigan. 568 U.S. 313
(2013), "Here we know trial court acquitted Evans, not because it incanted the word,
"acquit" (which it did not), but because it acted on its view that the prosecution had
failed to prove its case."
Petitioner contends that these facts as to the law raise interest so urgently
demanding immediate relief that the judicial system cannot rely upon the ordinary
avenue of correction. This Court must grant relief by means of Mandamus under the
All Writs Act. 28 U. S. (1651.)

11

Trial.
Conclusion
For the reasons stated, this Court must grant Rehearing of its judgment entered on November
16, 2020, and issue Writ of Mandamus directing the State of South Carolina to immediately
release Petitioner from the South Carolina Department of Corrections pursuant to Double
Jeopardy, False Imprisonment, and Lack of Jurisdiction of trial court to impose sentence
pursuant to State v. Terron Dizzley, 2009 - GS - 00778. Should Dizzley cry for justice not be
heard and denied relief; may this Court also cry and not be heard, "For whoever shut their ears
to the cry of the poor will also cry themselves and not be heard." Proverbs 21:13.
Respectfully submitted,

Terron Dizzley, #359480
4460 Broad River Road
Columbia, South Carolina 29210
Petitioner

12

No. 20-5693
In The
Supreme Court of the United States
IN RE:
Terron Dizzley
Certificate of Good Faith
Comes Now Petitioner, Terron Dizzley, and makes certification that his petition for
rehearing is presented to this Honorable Court in good faith pursuant to Rule 44. Mr. Dizzley
further states the following:
1. This Court entered its judgment denying petitioner a Writ of Mandamus on November
16, 2020. Petitioner believes that he presents this Court with adequate grounds to
justify the granting of rehearing in this case and said petition is brought in good faith
and not for delay.
Furthermore, Petitioner believes that based upon the law of this Supreme Court of the
United States and facts of this case, Dizzley is entitled to relief which has been unjustly
denied him. Petitioner further believes that if the Prosecutors and Judges are continually
allowed to violate citizens' Fifth Amendment Rights by retrying cases which were barred by
the double jeopardy clause and Judges are allowed to stop citizens' trials after jeopardy is
attached for reasons that are not dictated by a manifest necessity or ends of public justice
and then allow prosecutors to retry such cases will allow the State of South Carolina to
13

falsely imprison a number of American Citizens and deny them their constitutional right to
due process and to be free from Cruel and Unusual Punishment.
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on this

of December two thousand twenty.

Terron Dizzley

14

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
November 16, 2020

Scott S. Harris
Clerk of the Court
(202) 479-3011

Mr. Terron Garhard Dizzley
Prisoner ID #359480
Broad River Correctional Facility
4460 Broad River Rd.
Columbia, SC 29210
Re: In Re Terron Garhard Dizzley
No. 20-5693
Dear Mr. Dizzley:
The Court today entered the following order in the above-entitled case:
V.

The petition for a writ of mandamus is denied.

Sincerely,

Scott S. Harris, Clerk

APPENP/X-A

Questioning Re: Right to Testify
1

MR. DIZZLEY:

No, sir.

2

THE COURT:

And is what I've told you about your

3

right to testify the same thing that Mr. Barr told you about

4

your right to testify?

5

MR. DIZZLEY:

Yes, sir.

6

THE COURT:

All right, now, Mr. Barr tells me you've

7

not yet made your decision as to whether you intend to

8

testify, is that correct, sir?

9
10

)

305

MR. DIZZLEY:
THE COURT:

•Yes, sir.
All right, then we will - I will ask you

11

finally, do you have any questions about our discussion we've

12

just had or your right to remain silent or your right to

13

testify?

14
15

MR. DIZZLEY:

No, sir.

16

THE COURT:
All right, very good, anything further,
v
Mr. Barr, you would have me discuss with Mr. Dizzley about

17

those rights?

18

MR. BARR:

Mo, sir, Judge.

19

THE COURT:

And Mr. Hixson?

20

MR. HIXSON:

No, Your Honor.

21

THE COURT:

All right, then, sir, I'm going to let

22

you be seated and it would be my intention we would bring this

23

jury back, tell them that we have — we will end the

24

proceedings, take up with whether or not the Defendant will

25

call a witness or put up a case first thing in the morning and
APPENDIX - 0

State v. Dizzley
1

be prepared to go at 9:30.

2

be here at 9:15 ready to go.

3

we believe the charge to be that you can have now and take

4

with you over the evening hour,

5

be here at nine o'clock then we can have our charge

6

conference, 9:15 to 9:20, we can resolve any other issues and

7

be ready to go forward in whichever way the Defense wishes to

8

proceed.

9

)

306
What - I would ask counsel to do is
We have prepared copies of what

If you would please come and

Any objections to that from the State?

MR. HIXSON:

No, Your Honor.

10

THE COURT:

And from Defense?

11

MR. BARR:

No, sir, Judge.

12

THE COURT:

All right, then, let's bring in the jury,

13

please.

14
15

(Whereupon, the following takes place in the presence of
the j ury.)

16

THE COURT:

All right, ladies and gentlemen, welcome

17

back.

18

day.

19

than calling additional witnesses today we will wait until

20

tomorrow morning for the Defense to make a determination as to

21

whether they intend to put up a case because, again, they have

22

no burden of proof and also after that's concluded we'll begin

23

the arguments and charge.

24

going forward at this late hour when we change sides of the

25

case.

We really are pretty close to the end of the business
As you know the State rested a few moments ago.

Rather

There's no reason or benefit to

So we're going to stop for the day and what I'd ask you

State v. Dizzley

n

307

•_

1

to do is be - and by the way, there's no windows, so I don't

2

know if I'm sending you out to a monsoon again or not, but if

3

it is if you need one of our officers to help you get to your

4

car with an umbrella we'll do our best to provide that for you

5

and what I would ask that you do is be back in your jury room

6

again at 9:30 tomorrow morning.

7

again this evening please don't discuss this case with anyone

8

including your loved ones at home,

9

investigations.

We will start at 9:30, and

Don't undertake any

Just get a good night's rest and be back at

10

9:30 tomorrow morning.

11

no need to do that.

12

from our jury panel about scheduling?

Don't call the juror number.

Just be back at 9:30.

There's

Any questions now

)

13

(No response.)

14

THE COURT:

15

9:30 and as we do every day out of respect we will remain

16

where we are while you depart the courtroom first.

17

good afternoon,' ladies and gentlemen.

18
19
20
21

)

All right, well, then we will see you at

Have a

(Whereupon, the following takes place outside the
presence of the jury.)
THE COURT:

All right, anything further for our

record today?

22

MR. HIXSON:

No, Your Honor.

23

THE COURT:

Very good, gentlemen, if you would step

24

up we'll give you, again, this charge> is not set in stone, but

25

if you would meet me in chambers tomorrow morning at nine

Allen Charge

n

308

1

o'clock we'll be prepared to have a charge conference and if

2

you'd step forward and get the charge we are in recess now,

3

ladies and gentlemen, until 9:30 here in the courtroom

4

tomorrow morning.

5
6

(On the record, August 30, 2012.

7

at 9:42 a .m.)

8

(Note from jury [Court's Exhibit Number Five] received at

9

10:03 a.m.

Jury deliberations continue

Reply from Court sent back to jury at 10:21 a.m.)

10

(Note from jury at 11:12 a.m.

11

outside the presence of the jury.)

12

THE COURT:

The following takes place

Let's go back now on the record in the

13

case of the State versus Dizzley.

1.4

jury, ladies and gentlemen, or counsel, you want to step up

15

and look at it?

We have a message from the

Have you already seen it?

16

MR. BARR:

I've seen it, Judge.

17

THE COURT:

All right, very good.

It would be the

18

State's intention at this time to bring the jury back,

19

including our alternates, and give an Allen charge and I'll be

20

glad to hear from either side as to whether you object or

21

concur with that procedure.

What says the State?

22

MR. HIXSON:

I concur, Your Honor.

23

THE COURT:

All right, and Mr. Barr, you want to be

24
i

OFF THE RECORD

25

heard?
MR. BARR:

Your Honor, I just need to consult with my

Allen Charge
1

client for just a second.

2

THE COURT:

Very good.

3

MR. BARR:

Nothing from the Defendant, Judge.

4

THE COURT:

Very good.

We'll wait a moment.

Madam court reporter, let's

5

mark this as a Court's Exhibit, please, this note, and would

6

you please bring our two alternate jurors from the back and

7

then would you please bring our jury panel from the jury room.

. 8
9

MR. BARR:

And Judge, I think we've just got one now.

THE COURT:

Are we down to one now, all right.

10
11
12
/

309

(Whereupon, the following takes place in the presence of
the jury at 11:25 a.m.)
THE COURT:

Welcome.

I don't think you're going to

13

need your pad.

14

can hear them in the back.

15

are. That's fine. We'11.wait a moment. We're fine,

16

waiting on our alternate to join us.

17

for a moment.

18

for our others to join us I want to thank you for coming back

19

today.

20

were confronted by a flood on the way home yesterday and I

21

couldn't help but go notice as I drove by your business, Mr.

22

Thompson, I believe it flooded yesterday; did it not?

That's what some of the jurors are asking.
So I think you're fine where you

We're also

So we'll just be at ease

Ladies and gentlemen, just while we are waiting

I know that probably some of you, if you were like me,

23

MR. THOMPSON:

No, no.

24

THE COURT:

It did not?

25

I

heavy standing water near it.

All right, well, it had some

Allen Charge

r>
l

MR. THOMPSON:

It was close.

2

THE COURT:

Very good.

3

Well, I, I appreciate your

to be back today and when we had such adverse

4

weather conditions yesterday.

5

moment for our alternate and we have at least one of our

6

alternates is still remaining with us .

7

o

310

We're going to wait just one

While we have our 12 though assembled in the courtroom

8

let me ask, ladies and gentlemen, when we were apart from one

9

another last night is there any member of the jury panel who

10

had a discussion with any third person concerning or any other

11

jury panel member for that matter during the evening break

12

concerning the facts of this case?

13

your hand.

14

(No response.)

15

THE COURT:

If you did please raise

And again, let's let the record reflect no

16

one has raised their hands.

17

Court's request.

18

Ms. Morrison with us this morning as well, is that correct?

19

All right, good.

20

Thank you for complying with the

Welcome back, and we still, we still have

Here she comes.

Good morning.

All right, and ladies and gentlemen, I'm going to ask you

21

if you would just secure the back door so that we won't have

22

people coming and going as we talk with the jury here.

23

Ladies and gentlemen, first of all, welcome back to the

24

courtroom and I have received your message that you"ve been

25

unable to reach a verdict in the case, and as I - instructed you

Allen Charge

J

311

1

earlier and as we're all aware the verdict in this case must

2

be unanimous.

3

there is a matter in dispute it isn't always easy for even two

4

people to agree who may be discussing it, much less 12, and so

5

when 12 are required to agree on something well it's even more

6

difficult and in most cases I think we would all agree that

7

absolute certainty can never be reached and that's not what is

8

expected.

9

effort to reach a unanimous verdict if you can.

Now just thinking about this though at any time

However, you have a duty to make every reasonable
In doing this

10

you should consult with one another just as you have' been

11

doing, express your own views, but listen openly to the

12

opinions of your fellow jurors, tell each other how you feel

13

and why you feel that way and discuss your differences with

14

open minds as opposed to closed minds, and although the

15

verdict of the jury must be unanimous every one of you has the

16

right to your own opinion and the verdict that you agree to

17

must be your own verdict, the result of your own convictions

18

and you should not give up a firmly held belief merely to be

19

in agreement with fellow jurors,

20

the minority's opinion and the minority should consider the

21

majority s opinion and each of you should consider the others

22

opinion.

23

opinions of each other and reevaluate your position for its

24

reasonableness, correctness and impartiality,

25

aside all outside matters and reexamine the questions before

The majority should consider

You should carefully consider and respect the

You must lay

o

Allen Charge
1

you based on the law as I gave you and the evidence as you

2

found it in the case.

3

Now, let's talk about what happens if you do not agree or

4

cannot agree on a verdict,

5

declares a mistrial and what that means is that nobody wins,

6

neither the State nor the Defendant,

7

some future time this case will be tried again with some other

8

jury sitting where, where you sit today,

9

participants will come in, same witnesses, most likely give

10

the same testimony, the same lawyers will basically ask the

11

same questions and we'll go through the entire process of the

12

trial again.

13

If that happens and the Court

It just means that at

The same

Now, you were selected in the same manner and from the

14

same jury pool really, the community, as any future jury will

15

be and there's no reason for me to suppose or expect that the

16

case would ever be submitted to 12 more intelligent and

17

capable, that is capable, impartial and conscientious and

18

competent jurors than you are and that some greater evidence

19

or more or clear evidence will be adduced on one side or the

20

other.

21

J

312

So, ladies and gentlemen, I'mgoing to ask you to return

22

to your deliberations one more time.

23

reach a verdict please advise me- of that, but I ask you in

24

compliance with the instructions that I've given you to go

25

back and try again and out of respect for you and your efforts

If you're unable to

Allen Charge

O
V

313

s

1

we're going to remain where we are while you return to the

2

jury room.

3
4
5

(

(Whereupon, the following takes place outside the
presence of the jury.)
THE COURT:

That's fine,

If they wish to take a smoke

6

break please give them that opportunity.

7

to the charge that s just been given by the Court from the

8

State?

9

o

Thank you, ladies and gentlemen.

MR. HIXSON:

No, Your Honor.

10

MR. BARR:

No, Judge.

11

THE COURT:

And from Defense,

Now, any objection

Then hearing none then

12

we re ready to move into other business now, Mr. Hixson, and

13

please call your next case.

14

OFF THE RECORD

15

(On the record.

16

takes place outside the presence of the jury.)

17

THE COURT:

Note from jury at 12:20 p.m.

The following

Let's go back in the record, on the record

18

in the case of the State versus Dizzley and while everyone is

19

coming back in let's go ahead and bring the jury in and let's

20

bring our alternate jurors,

21

alternate jurors as well into the courtroom.

22
23
24
25

Ms. Owens, if you'd bring the

(Whereupon, the following takes place in the presence of
the j ury.)
THE COURT:

All right, ladies and gentlemen, welcome

back and Mr. Grate, Mr. Foreman, ladies and gentlemen of the

Allen Charge

O

314

■—i

1
2
3
4

I have on my mind and heart about this matter.

5

I don't want you to think in any way that
your exercise as

6

jurors has been a failure on your part because you could not

7

reach a verdict,

First of all,

That's not a failure on your part.

That's

8

really the strength of our system because we bring diverse

^

citizens from different backgrounds all from the same

10

community to hear a set of facts and make a decision as to

11

whether or not in criminal court a person is guilty or

12

innocent.

13

Now, what you've told us is that
you can't reach a

14

unanimous decision, and I would say to you to that that's not

15

a failure on your part.

16

the Prosecution that they are unable to meet the burden of

17

proof to the extent that they.can bring back a unanimous
verdict.

18
19

J

jury, I've received a message that tells me that the
jury is
still deadlocked and unable to reach a decision in this
case
and I wanted to, first of all, tell you one or
two things that

That s actually a strong message to

Now, the way this process actually works is
it is up to

20

the Solicitor as to whether they will dismiss the charge or

21

whether they will retry this case or perhaps redevelop the

22

charge in some way and bring a separate charge of some kind

23

and try that.

24

It's not within the control of the Defendant, but what's going

25

to happen here is the Court is going to declare a. mistrial,

It's a

the decision rests with the Solicitor.

•*

i,

316
-/

1

CERTIFICATE

2
3
4

I, the undersigned, Grace L. Hurley, Official Court

5

Reporter for the State of South'Carolina, do hereby certify

6

that the foregoing is a true, accurate and complete Transcript

7

of Record of the trial held in the case of The State versus

8

Terron Gerhard Dizzlgy, held in the Court of General Sessions

9

for Georgetown County, Georgetown County Courthouse,

10

Georgetown, South Carolina, on August 27, 28 and 30th, 2012.

11

I do hereby certify that I am neither of kin, counsel,
nor interest to any party hereto.

12
;

13
14
15
16
/

17

Grace L. Hurley, CVR-CM-M

18

Official Reporter

19
20
21
22
23
24

J

.

September 14, 2013.

